<html>
<title> - LEGISLATIVE HEARING ON S. 1514, THE HUNTING HERITAGE AND ENVIRONMENTAL LEGACY PRESERVATION (HELP) FOR WILDLIFE ACT</title>
<body><pre>[Senate Hearing 115-77]
[From the U.S. Government Publishing Office]


                                                       S. Hrg. 115-77

LEGISLATIVE HEARING ON S. 1514, THE HUNTING HERITAGE AND ENVIRONMENTAL 
              LEGACY PRESERVATION (HELP) FOR WILDLIFE ACT

=======================================================================

                                 HEARING

                               BEFORE THE

                              COMMITTEE ON
                      ENVIRONMENT AND PUBLIC WORKS
                          UNITED STATES SENATE

                     ONE HUNDRED FIFTEENTH CONGRESS

                             FIRST SESSION

                               ----------                              

                             JULY 19, 2017

                               ----------                              

  Printed for the use of the Committee on Environment and Public Works
  
  
[GRAPHIC NOT AVAILABLE IN TIFF FORMAT]  
  


         Available via the World Wide Web: http://www.fdsys.gov


                                __________
                               

                    U.S. GOVERNMENT PUBLISHING OFFICE                    
26-784 PDF                  WASHINGTON : 2017                     
          
----------------------------------------------------------------------------------------
For sale by the Superintendent of Documents, U.S. Government Publishing Office, 
http://bookstore.gpo.gov. For more information, contact the GPO Customer Contact Center, 
U.S. Government Publishing Office. Phone 202-512-1800, or 866-512-1800 (toll-free). 
E-mail, <a href="/cdn-cgi/l/email-protection" class="__cf_email__" data-cfemail="e483948ba4879197908c818894ca878b89ca">[email&#160;protected]</a> 



               COMMITTEE ON ENVIRONMENT AND PUBLIC WORKS

                     ONE HUNDRED FIFTEENTH CONGRESS
                             FIRST SESSION

                    JOHN BARRASSO, Wyoming, Chairman
JAMES M. INHOFE, Oklahoma            THOMAS R. CARPER, Delaware
SHELLEY MOORE CAPITO, West Virginia  BENJAMIN L. CARDIN, Maryland
JOHN BOOZMAN, Arkansas               BERNARD SANDERS, Vermont
ROGER WICKER, Mississippi            SHELDON WHITEHOUSE, Rhode Island
DEB FISCHER, Nebraska                JEFF MERKLEY, Oregon
JERRY MORAN, Kansas                  KIRSTEN GILLIBRAND, New York
MIKE ROUNDS, South Dakota            CORY A. BOOKER, New Jersey
JONI ERNST, Iowa                     EDWARD J. MARKEY, Massachusetts
DAN SULLIVAN, Alaska                 TAMMY DUCKWORTH, Illinois
RICHARD SHELBY, Alabama              KAMALA HARRIS, California

              Richard M. Russell, Majority Staff Director
               Gabrielle Batkin, Minority Staff Director
                            
                            C O N T E N T S

                              ----------                              
                                                                   Page

                             JULY 19, 2017
                           OPENING STATEMENTS

Barrasso, Hon. John, U.S. Senator from the State of Wyoming......     1
Carper, Hon. Thomas R., U.S. Senator from the State of Delaware..    66

                               WITNESSES

Nesvik, Brian, Chief Game Warden, Wyoming Game and Fish 
  Department.....................................................    69
    Prepared statement...........................................    72
    Responses to additional questions from Senator Barrasso......    84
Crow, Jeff, Director, Arkansas Game and Fish Commission..........    90
    Prepared statement...........................................    92
Hall, Dale, CEO, Ducks Unlimited, and former Director, U.S. Fish 
  and Wildlife Service...........................................    97
    Prepared statement...........................................    99
    Responses to additional questions from Senator Wicker........   106
Coble, Kim, Vice President, Environmental Protection and 
  Restoration, the Chesapeake Bay Foundation.....................   108
    Prepared statement...........................................   110
    Response to an additional question from Senator Barrasso.....   118
Vucetich, John, Ph.D., Associate Professor, School of Forest 
  Resources and Environmental Science, Michigan Technological 
  University.....................................................   197
    Prepared statement...........................................   199

                          ADDITIONAL MATERIAL

S. 1514, the Hunting Heritage and Environmental Legacy 
  Preservation (HELP) for Wildlife Act...........................   235
An Open Letter to Members of Congress and the White House from 
  Scientists and Scholars on Federal Wolf Delisting and 
  Congressional Intervention on Individual Species in the Context 
  of the U.S. Endangered Species Act, July 18, 2017..............   298
Letter to Senators Barrasso and Carper from The Humane Society of 
  the United States, July 24, 2017...............................   317

 
LEGISLATIVE HEARING ON S. 1514, THE HUNTING HERITAGE AND ENVIRONMENTAL 
              LEGACY PRESERVATION (HELP) FOR WILDLIFE ACT

                              ----------                              


                        WEDNESDAY, JULY 19, 2017

                                       U.S. Senate,
                 Committee on Environment and Public Works,
                                                    Washington, DC.
    The Committee met, pursuant to notice, at 10:05 a.m. in 
room 406, Dirksen Senate Office Building, Hon. John Barrasso 
(Chairman of the Committee) presiding.
    Present: Senators Barrasso, Carper, Inhofe, Boozman, 
Fischer, Moran, Rounds, Ernst, Cardin, Gillibrand, Booker, and 
Harris.

           OPENING STATEMENT OF HON. JOHN BARRASSO, 
             U.S. SENATOR FROM THE STATE OF WYOMING

    Senator Barrasso. Good morning. I call this legislative 
hearing to order.
    Today we are here to talk about S. 1514, the Hunting 
Heritage and Environmental Legacy Preservation for Wildlife 
Act, HELP for Wildlife. The bill is comprehensive. It is 
bipartisan, designed to enhance recreational hunting and sport 
fishing activities, to ensure common sense environmental 
regulation, and to protect wildlife and wildlife habitat.
    I introduce this bipartisan bill along with Senators Cardin 
and Capito and Klobuchar and Boozman and Baldwin. The bill has 
been additionally cosponsored by Senators Enzi, King, and 
Johnson. I thank them for working with me and crafting the 
legislation that the Theodore Roosevelt Conservation 
Partnership has called the strongest legislative package of 
sportsmen's priorities in years.
    The HELP for Wildlife Act does a number of things. First, 
it protects wildlife and wildlife habitat across the country by 
reauthorizing important environmental programs. Among others, 
the bill reauthorizes until 2023 the North American Wetlands 
Conservation Act, the National Fish and Wildlife Foundation 
Act, the Neotropical Migratory Bird Conservation Act, the 
Chesapeake Bay Program, and the Chesapeake Bay Gateways Grants 
Assistance Program.
    The bill also provides for enhanced recreational shooting 
and sport fishing activities. The bill finalizes partnerships 
among public agencies and other interested parties for 
promoting fish conservation across the country that will create 
new recreational sport fishing activities and opportunities.
    The bill also ensures that lead tackle, which is widely 
used by anglers, is not unnecessarily regulated under the Toxic 
Substances Control Act, a position reaffirmed twice by the 
Obama administration. The bill also promotes the building and 
expansion of public target ranges for recreational shooting.
    Finally, this bill ensures common sense environmental 
regulation that protects species, as well as farmers and 
ranchers. The bill prevents farmers from being held liable for 
bird baiting for hunting purposes if they adhere to USDA and 
State agriculture best practices.
    The bill also prohibits judicial review of the final Obama 
administration rule delisting the recovered gray wolf in 
Wyoming that was reinstated by the U.S. Court of Appeals for 
the District of Columbia on March 3rd of 2017 and republished 
on May 1st of 2017. The bill also mandates the reissuance of 
the final rule delisting the gray wolf in the western Great 
Lakes, and it prohibits judicial review.
    The HELP for Wildlife Act has garnered tremendous support 
from the environmental and the sportsmen's communities. Over 50 
different organizations have endorsed the HELP for Wildlife 
Act, diverse groups such as Ducks Unlimited, which will be 
testifying today; the National Wildlife Federation; Trout 
Unlimited; the Chesapeake Bay Foundation; the Association of 
Fish and Wildlife Agencies; the Choose Clean Water Coalition; 
the American Sport Fishing Association; Boone & Crockett Club; 
Safari Club International; the Congressional Sportsmen 
Foundation; and the Rocky Mountain Elk Foundation, just to name 
a few.
    Many groups in my home State of Wyoming have also submitted 
written testimony in support of the bill, including the Wyoming 
Association of Conservation Districts, the Wyoming Stock 
Growers Association, the Wyoming Farm Bureaus Federation, the 
Wyoming Wool Growers Association, and the Wyoming County 
Commissioners Association. Former Democrat Governor Dave 
Freudenthal, who I think e-mailed you yesterday, has also 
submitted written testimony in support of the HELP for Wildlife 
Act.
    I ask that all their written testimonies be submitted for 
the record.
    [The referenced information follows:]
    [GRAPHICS NOT AVAILABLE IN TIFF FORMAT]
    
    Senator Barrasso. I will also note that my friend, Brian 
Nesvik, Chief Game Warden with the Wyoming Game and Fish, is 
testifying today in support of the bill. It is an honor. I had 
the honor of spending time with Brian on several occasions in 
2009, including Thanksgiving dinner. At the time, he was 
deployed to Kuwait as the commander of the second of 300th 
Field Artillery unit, which had the mission to running convoy 
operations into Iraq in a very dangerous time. So thank you 
very much, Brian, for coming to be with us today to testify.
    Just as with the WILD Act and the Nuclear Energy Innovation 
and Modernization Act, which both passed this Committee earlier 
this year with strong bipartisan support, this bill is another 
example of how we can work together, both Democrat and 
Republican, to help protect the environment and grow the 
economy. So I look forward to working with my colleagues on 
moving this important legislation out of the Committee and pass 
it to the Senate floor.
    With that, I look forward to the testimony of our Ranking 
Member for his opening statement.

          OPENING STATEMENT OF HON. THOMAS R. CARPER, 
            U.S. SENATOR FROM THE STATE OF DELAWARE

    Senator Carper. Thanks very much, Mr. Chairman.
    To each of our witnesses, welcome.
    Brian, what branch of the service were you in?
    Mr. Nesvik. Senator, I am in the Army National Guard and 
continue to serve today.
    Senator Carper. Navy solutes Army. I am a retired Navy 
captain. I appreciate you very much. I like to say different 
uniforms; same team. So we are glad you are here.
    Glad all of you are here.
    We haven't seen Dale for about like 20 minutes, so it is 
nice to see you again.
    [Laughter.]
    Senator Carper. This is double duty. Twice the citizen, 
that is what you are.
    Welcome, everybody.
    We have considered, as you know, my colleagues know that 
most of this legislation before, and I have supported different 
iterations of sportsmen's bills over the years. I think most of 
us have. I look forward to hearing from each of you. We look 
forward to hearing from each of you about this year's bill, the 
HELP for Wildlife Act.
    I recognize the important role that sportsmen and other 
outdoor enthusiasts play in our economies. We are blessed in 
our State to have two beautiful, magnificent wildlife refuges 
right along the Delaware Bay and one of the nation's newest 
national parks. So this is something that is close to home for 
us in Delaware.
    According to the Congressional Sportsmen's Foundation, 
Delaware has about 177,000 hunters. We only have 178,000 
people.
    [Laughter.]
    Senator Carper. Actually, we have almost a million. And 
anglers who spend $158 million annually and support almost 
2,000 jobs. Almost 2,000 jobs. Many of these sportsmen and 
sportswomen also invest their time and resources to promote 
habitat conservation, in part through programs that will be 
reauthorized through the HELP for Wildlife Act.
    Hunting is only one form of wildlife related recreation. A 
2011 Census study showed that more than 340,000 people enjoyed 
wildlife related recreation in Delaware, and 71 percent of them 
participated in wildlife watching specifically. Year after 
year, people come to the First State to observe the federally 
threatened red knot shorebirds which stop along the Delaware 
Bay to refuel on horseshow crab eggs along their amazing 9,000 
mile migratory journey.
    As we consider the HELP for Wildlife Act, we must carefully 
balance the different interests at play in wildlife 
preservation and recreational activities across our country. 
This careful balance is especially difficult to strike when it 
comes to managing some of our nation's most charismatic 
species, including the gray wolf.
    As Ranking Member of this Committee, I have made clear my 
firm commitment to ensuring that wildlife management decisions 
are guided and driven by the best available science. The idea 
of intervening in the current science based, publicly informed 
species management process to legislatively delist a species 
gives me great pause.
    In the case of gray wolves, the Committee must consider the 
strong support across our nation for wolf protection and the 
critical role that wolves play in their ecosystems. We will 
hear from witnesses today on both sides of this complex issue, 
and I am especially interested in their perspectives on how 
best to manage this special species.
    I would be remiss if I did not mention the new provisions 
in this bill to reauthorize the Chesapeake Bay program, the 
Chesapeake Bay Initiative Act. Our champion here to my left, my 
wingman on many issues involving Delmarva, Delmarva peninsula, 
Del, Mar, and Buzz is probably out there somewhere in the 
audience. I would be remiss if I did not mention the new 
provisions in this year's bill to reauthorize the Chesapeake 
Bay, and we should applaud Ben for his leadership in important 
sections of the HELP Act for his leadership.
    As part of the Chesapeake Bay watershed, Delaware takes its 
responsibilities to contribute to the Chesapeake Bay's recovery 
and sustainability very seriously. I am particularly interested 
to hear what our witnesses have to say about how our Bay is 
doing. The Committee needs a full understanding of the 
Chesapeake Bay program role in assisting State efforts to 
restore the Bay and the role that the Chesapeake Gateways and 
Watertrails Network plays in advancing public understanding of 
and support for the Chesapeake restoration.
    Again, our thanks to all of you. We look forward to hearing 
from you and for you to share your expertise with us. Bring it 
on.
    Senator Barrasso. Well, thank you very much, Senator 
Carper.
    We have a couple of members who have some guests today who 
are testifying, so I would like to first give Senator Boozman 
the opportunity to introduce Mr. Jeff Crow, who will be 
testifying today.
    Senator Boozman. Thank you, Mr. Chairman, and thank you for 
calling this important hearing. I would just like to take a 
second to give a special thanks to Jeff, of Hot Springs County, 
Arkansas, for coming here today and testifying.
    Director Crow began his career with the Arkansas Game and 
Fish Commission in 1986 and has been serving as Director since 
2016. In 1996 he accepted a position with the Arkansas State 
Police, where he had assignments in highway patrol, criminal 
investigations, training, and SWAT. He retired from law 
enforcement in 2011, after 25 years of service. In 2012 he 
returned to the Arkansas Game and Fish Commission as a colonel 
of the agency's Enforcement Division. In 2013 Jeff was promoted 
to Deputy Director, and the following year he became the 
agency's Chief of Staff.
    Director Crow also served 25 years on active duty as a 
member of the Reserves in the United States Marine Corps. A 
combat veteran of Operation Desert Storm and Operation Iraqi 
Freedom, he retired in 2007 at the rank of Sergeant Major.
    I think you have done everything.
    Director Crow holds an associate's degree in Criminal 
Justice from National Park College, a bachelor's degree in 
Organizational Management from John Brown University, and a 
master's degree in Public Administration from Arkansas State 
University. With all this experience, I cannot think of anyone 
better to discuss why the HELP Act is great for the State of 
Arkansas and this nation.
    I would like to thank Director Crow for his service to the 
State of Arkansas and to this country. We thank you for 
agreeing to testify about this important legislation and look 
forward to your testimony.
    Thank you, Mr. Chairman.
    Senator Barrasso. Thank you very much, Senator Boozman.
    I would like to offer now an opportunity to Senator Cardin 
to introduce Kim Coble, who is here to testify today.
    Senator Cardin. Well, first of all, Mr. Chairman, thank you 
for conducting this hearing. Thank you for your leadership on 
this legislation.
    I am pleased that Kim Coble could be with us today. Kim is 
the Vice President for the Environmental Protection and 
Restoration at the Chesapeake Bay Foundation. She started her 
career at the Chesapeake Bay Foundation in 1992. We have been 
working on the Bay for a long time, Mr. Chairman, and Kim has 
been one of those key players as the senior scientist in the 
Foundation's Virginia Office, Delmarva, the States of the 
Chesapeake Bay region, which includes six States and the 
District of Columbia.
    In 2003 she was named the Chesapeake Bay Foundation's 
Maryland Executive Director, where she directed policy and 
management of a diverse team of scientists, land use 
specialists, lawyers, grassroots coordinators, and volunteers 
to protect and restore the Chesapeake Bay, and then in 2011 she 
became the Foundation's Vice President of Environmental 
Protection and Restoration.
    Mr. Chairman, I think this Committee has heard me mention 
many times how proud we are of the way that the Chesapeake Bay 
restoration efforts were handled. It started at the grassroots, 
the local levels with the State of Maryland, the State of 
Pennsylvania, the State of Virginia, the State of Delaware. We 
involved local governments and private sector, and the 
Chesapeake Bay Foundation has been a critical part of that 
team.
    The reauthorization of the Chesapeake Bay program is a 
critical factor for the Federal partnership in the program, but 
the Bay efforts receive help from many different programs. 
Several are being reauthorized by the legislation that you 
introduced today. So it is a pleasure to have Kim with us today 
to explain the importance of the Federal role for the 
Chesapeake Bay.
    Senator Barrasso. Well, thank you very much.
    Thank you all for being here. I will alert the witnesses 
that today there is a roll call vote sometime during this 
Committee, so you may see some of us go and come back. Don't be 
offended; we just apologize in advance. We are going to need to 
vote and then come back.
    So, with that, I look forward to hearing the testimony, 
beginning with Brian Nesvik.

STATEMENT OF BRIAN NESVIK, CHIEF GAME WARDEN, WYOMING GAME AND 
                        FISH DEPARTMENT

    Mr. Nesvik. Well, good morning, Mr. Chairman, Ranking 
Member Carper, and members of the Committee. I am glad to be 
back with the Committee. It is absolutely an honor to discuss 
these issues that are important to the citizens of my State and 
across the nation, and I will do my best here today to meet the 
Committee's needs on this particular piece of legislation.
    Mr. Chairman, I would like to open by passing along the 
sincere appreciation of the President of the Wyoming Game and 
Fish Commission, Keith Culver. I spoke with Keith here in the 
last couple of days, and he is today presiding over a Wyoming 
Game and Fish Commission meeting in a town you are very 
familiar with, Afton, Wyoming. They are actually discussing 
some of the same issues that we will discuss here today. The 
Commission did want to pass along, though, their appreciation 
for yours and the Committee's work on wildlife type legislation 
over the last several months.
    Mr. Chairman, as you are keenly aware, Wyoming is home to a 
rich and diverse wildlife resource that is valued by an equally 
rich and diverse constituency. Much of the State's wildlife 
habitats remain in pristine condition and continue to provide 
wide open spaces and remote wild country for western iconic 
species like sage-grouse, grizzly bears, moose, gray wolves, 
pronghorn antelope, and elk. These resources directly affect 
and influence the quality of life for Wyoming's citizens and 
visitors from all over the globe.
    As I analyzed the key provisions of this bill, two things 
struck me about the overarching themes. First, there is a 
reliance on the underlying trust and abilities of States to 
make decisions regarding important issues affecting their 
citizenry. Second, the bill places priority on, and provides 
resources for, America's fish and wildlife resources and the 
places that they live.
    Wyoming citizens take very seriously their trust 
responsibility for the management of all wildlife within its 
borders. State leaders have invested significant resources and 
inspired a conservation ethic in all of its endeavors. 
Wyomingites pride themselves on balancing conservation with 
economic development and maintaining a quality of life that 
reflects their most deeply held western values. One of those 
most important values is the reliance on State management of 
those wildlife occupying habitats within the boundaries of the 
State.
    Section 8 of this Act and its provisions to preserve wolves 
in a delisted status in Wyoming provides a mechanism to provide 
the State with predictability and commitment; predictability, 
the State will be able to focus on managing the gray wolf, and 
commitment that as Wyoming maintains a healthy and viable 
recovered gray wolf population, that it will be able to 
continue its management uninterrupted.
    The gray wolf population in our State has been recovered 
since 2002, and the Service has now, on three occasions, 
published a rule that definitively states wolves are recovered 
and that Federal management is no longer needed. For over 15 
years, Wyoming's citizens have been extremely patient while the 
Service and the courts have wrestled with the status of a 
recovered population of wildlife within Wyoming's borders. The 
citizens of the State are ready for predictability and 
commitments that ensure State management into the future, and 
this bill provides that.
    During the 2 years when Wyoming managed wolves under its 
current Wolf Management Plan, its wolf population thrived and 
remained far above recovery criteria. In fact, wolf populations 
and the number of breeding pairs occupying suitable habitats 
remained over 70 percent above the minimum requirements of the 
ESA.
    Because not all habitats are biologically and socially 
suitable, there is a need to manage wolves and mitigate 
conflicts between wolves and livestock and private property 
owners. The State's track record is strong in its management of 
these conflicts, and during the 2 years when Wyoming managed 
the population, there were an average of 35 wolves removed by 
our agency consequential to livestock damage each year. Last 
year, under the authority of the Fish and Wildlife Service, 
Federal managers removed at least 113 wolves in control actions 
in response to livestock depredation.
    As currently written, this Act reserves the responsibility 
for the Service to relist Wyoming's gray wolf population if it 
becomes threatened or endangered in the future. The ESA 
mandates that the Service's evaluation of all potential 
emerging threats or changing science and requires specific 
actions if recovery is not maintained. Despite the facts that 
the courts have been the lead in relisting species, they are 
not required to relist species, and this bill does not inhibit 
the responsibility of the Service to continue to oversee, for 
the post-delisting monitoring period, the wolf population in 
Wyoming.
    In Idaho and Montana, where delisting was achieved through 
congressional action, State management remains intact today, 
and the 5-year post-delisting monitoring requirement of the ESA 
has expired. Both States continue to manage a fully recovered 
gray wolf population, and there no longer exists any Federal 
oversight.
    Germane to the core tenets of the ESA is its intent and 
stated goal to recover and delist endangered species, and 
again, the provisions of this bill in section 8 that provides 
certainty to future management of Wyoming wolves is welcome.
    With that, Mr. Chairman, I would also like to provide my 
concise thoughts on other very important components of this 
bill. As I stated earlier in my opening comments, this bill 
provides a priority on the protection and enhancement of 
wildlife habitats across America. The reauthorization of the 
North American Wetland Conservation Act, also known as NAWCA, 
is reflective of the priority Americans place on wildlife and 
wild places.
    In one project in our State, in the Upper Green River Basin 
in Western Wyoming, NAWCA was used in a big way, for its 
intended purpose. A $1 million NAWCA grant awarded to the 
Wyoming Game and Fish in 2013 protected and enhanced over 
16,000 acres of critical habitat in the Pacific Flyway, 
benefiting wildlife and their habitats. Also important in that 
is that partners were able to match Federal dollars by nearly 
$3 million.
    Mr. Chairman, there are several other provisions of this 
bill where I offer additional perspective in my full written 
testimony, and I look forward to answering yours and the 
Committee's questions. Thank you.
    [The prepared statement of Mr. Nesvik follows:]
    [GRAPHICS NOT AVAILABLE IN TIFF FORMAT]
    
    Senator Barrasso. Thank you very much for your testimony, 
Brian. Appreciate your being here.
    Mr. Crow.

               STATEMENT OF JEFF CROW, DIRECTOR, 
               ARKANSAS GAME AND FISH COMMISSION

    Mr. Crow. Good morning, Mr. Chairman and members of the 
Committee. I am Jeff Crow, Director of the Arkansas Game and 
Fish Commission.
    Mr. Chairman, I ask for unanimous consent that my full 
statement be made part of the record.
    Senator Barrasso. Without objection.
    Mr. Crow. Thank you for allowing me the opportunity to 
testify on behalf of the State of Arkansas supporting the 
Hunting Heritage and Environmental Legacy Preservation for 
Wildlife Act.
    Arkansas' position as the nation's top producing rice 
growing State, as well as its reputation as a premier waterfowl 
hunting destination in the country, gives us a unique 
perspective concerning proposed amendments to the Migratory 
Bird Treaty Act. Waterfowl conservation is one of the more 
successful examples of coordination between State and Federal 
authorities.
    It is this cooperation that has benefited wildlife in 
Arkansas and the people that enjoy that wildlife resource. 
Arkansas hunters consistently rank in the top three total duck 
harvest annually and lead the nation in mallard harvest each 
year. In a time when many States are experiencing declines in 
hunting participation, Arkansas duck hunter numbers have grown 
over the past decade, with approximately 100,000 individuals 
duck hunting in Arkansas each year, including Arkansas 
residents and visitors from all 50 States.
    Outdoors related recreation generates more than $4.9 
million daily in Arkansas. Waterfowl hunting in Arkansas 
generated $236.7 million in retail sales, supported 4,706 jobs, 
and provided $29.1 million and $23.9 million in State/local and 
Federal tax revenue, respectively. These significant economic 
contributions cannot be overlooked and provide much needed 
economic stability for our State.
    Arkansas is the largest rice growing State, producing half 
the nation's rice. Arkansas grows rice on more than 1.2 million 
acres each year from 40 counties. Arkansas rice contributes 
over $4 billion annually to the State's economy and employs 
more than 25,000 Arkansans.
    It is no secret that rice fields and ducks go hand in hand, 
but the amount of food available for migrating and wintering 
waterfowl in rice fields has been on the decline for several 
decades. Earlier harvests, more efficient harvesting, and fall 
tillage result in little waste grain left when most ducks 
arrive in mid-winter. The practice of encouraging a second or 
``ratoon,'' crop of rice after harvest offers a viable tactic 
to increase foraging value of rice fields to help waterfowl 
meet food and energy demands required for migration, winter 
survival, and breeding. Although traditionally practiced in the 
Louisiana and Texas Gulf Coast, ratooning rice is now possible 
thanks to the development of those new varieties of rice which 
mature to harvestable conditions much faster. However, a change 
in interpretation of the baiting laws relative to ratoon rice 
crops several years ago resulted in uncertainty about the 
legality of flooding and waterfowl hunting over ratoon rice 
crops.
    Currently, the Federal interpretation on whether a field is 
baited or not includes a variety of possibilities which leads 
to confusion by both landowners/producers and hunters. Some 
criteria which are increasingly difficult to determine from a 
landowner perspective and measure from a law enforcement 
standpoint include how the crop plants got there, what has been 
done to the crop, and what will happen to it in the future.
    The proposed bill affords the opportunity for enhanced 
State-level coordination between the USDA Cooperative Extension 
Service State offices and State fish and wildlife agencies when 
defining normal agricultural practices based on crop type and 
conditions. It is an activity that must occur at the State 
level to be implemented correctly and successfully.
    This bill would codify clearer definitions around issues of 
baiting, afford the opportunity for waterfowl hunting over 
ratoon rice and other crops that have not been manipulated, and 
allow conservation partners to educate producers and hunters 
about the value of agriculture to wintering waterfowl without 
compromising the legal standing of those producers and hunters.
    The bill language reauthorizing the North American Wetlands 
Conservation Act at $50 million for the next 4 years is also a 
welcome addition. Competition for limited NAWCA funds has 
increased in recent years, and this proposed appropriation 
level would provide valuable, consistent funding for migratory 
bird habitat conservation in coming years. NAWCA is a long 
standing program that has been extremely effective in 
leveraging non-Federal funds to protect, restore, enhance, and 
manage wetland habitat for migratory birds and other wildlife.
    Mr. Chairman, once again, in closing, I would like to say I 
appreciate the opportunity to testify in support of this 
legislation. I believe the changes proposed are essential to 
the increased participation in hunting and shooting sports, 
which in turn provides the mechanism for increased conservation 
of our nation's wildlife resources. I would be happy to answer 
any questions you may have about my testimony today and look 
forward to continuing our work together to preserve our natural 
resources for the next generation.
    [The prepared statement of Mr. Crow follows:]
    [GRAPHICS NOT AVAILABLE IN TIFF FORMAT]
    
    Senator Barrasso. Well, thank you very much, Mr. Crow, for 
traveling here from Arkansas and for your testimony today.
    I would like to next turn to Mr. Dale Hall, who is the CEO 
of Ducks Unlimited and the former Director of the United States 
Fish and Wildlife Service.
    Mr. Hall, thanks for joining us today.

         STATEMENT OF DALE HALL, CEO, DUCKS UNLIMITED, 
      AND FORMER DIRECTOR, U.S. FISH AND WILDLIFE SERVICE

    Mr. Hall. Good morning, Mr. Chairman, members of the 
Committee. Thank you very much for having me here.
    Mr. Chairman I request that my written comments be 
submitted to the record in their entirety.
    Senator Barrasso. And they certainly will. Thank you.
    Mr. Hall. Again, thank you for allowing me to be here to 
speak on behalf of Ducks Unlimited in support of the HELP Act. 
This bill is very important and has a lot of components in it 
that are important to all of us in the conservation community.
    NAWCA, the North American Wetlands Conservation Act, is 
certainly a big part of that, and it is near and dear to Ducks 
Unlimited's heart because we work a great deal in restoring 
those wetlands out there. Over our 80-year history across the 
continent, we have now restored over 14 million acres of 
wetlands, and a lot of those acres have been restored with the 
help of NAWCA funding in the last 30 years. It has been a real 
pleasure to work with this Committee in the past, and hopefully 
we are able to provide the information necessary to get this 
bill across the finish line.
    NAWCA has accomplished success in all 50 States. The 
program has conserved more than 33.4 million acres in North 
America alone. NAWCA has conserved valuable wetlands across the 
continent, but we are still in need of additional work. 
Wetlands are still under threat across the continent, and while 
we have done a good job, the U.S. Fish and Wildlife Service has 
documented that wetland loss has dramatically accelerated by 
140 percent since 2004. This non-regulatory approach to working 
with the landowners to get the job done is, we believe, the 
most effective way to help conserve those wetlands and move 
things forward.
    NAWCA catalyzes conservation efforts and resource managers 
and partners from many sectors to use a variety of voluntary 
strategies to restore enhanced degraded habitat, as well as 
protect some of the remaining high quality habitat. Wildlife 
related recreation generates more than $100 billion in our 
economy each year, and we believe the ripple effect of that 
would take it up into several hundred billion dollars.
    In the Chairman's State of Wyoming, 140,116 hunters created 
nearly 5,000 jobs, while 302,758 anglers generated more than 
$476 million in retail sales. Eight NAWCA projects have been 
completed in Wyoming since the program's inception, and these 
projects have conserved 45,000 acres of critical wetland and 
wildlife habitat.
    The Ranking Member's home State of Delaware currently has 
10 NAWCA projects completed or underway, and these projects 
have conserved 10,800 acres of wetlands important to the State 
residents. Taking $6.6 million of Federal funding leveraged 
another $412 million in private and non-Federal funding in 
order to do these projects.
    These results are not unique and have been seen all over 
the country, with more than 5,600 NAWCA partners. I want to 
emphasize that again. More than 5,600 NAWCA partners working 
together in a volunteer fashion to get this work done.
    Our average at Ducks Unlimited in getting the matching 
funds--the law requires one to one match--our history is that 
we get an average of $3.2 of non-Federal funding for every $1 
of Federal funding. That is a pretty significant payoff for the 
American taxpayer.
    I would also like to emphasize the importance in this bill 
of the reauthorization of the National Fish and Wildlife 
Foundation. I have been, through my career, around to see NFWF 
grow and do all the wonderful things that it has been able to 
do, and we certainly support the reauthorization of the 
National Fish and Wildlife Foundation.
    The Neotropical Migratory Bird Conservation Act, while only 
$6.5 million, is critical to working with the international 
community in getting things done.
    Finally, my colleague here will speak to the Chesapeake 
Bay, but it is a very important area. Like the Gulf Coast, 
where more than a million acres have been lost and partners are 
working together to try to restore those wetlands, the 
Chesapeake Bay is another true jewel for the American people.
    Again, I look forward to working with this Committee and 
answering any questions that I can to help get this bill 
approved. It is a good bill, it is a bipartisan bill, and it is 
a bill that is very much needed, so thank you very much for 
allowing me to be here.
    [The prepared statement of Mr. Hall follows:]
    [GRAPHICS NOT AVAILABLE IN TIFF FORMAT]
    
    Senator Barrasso. Thank you very much for your testimony, 
Mr. Hall. We are delighted to have you.
    Ms. Coble.

     STATEMENT OF KIM COBLE, VICE PRESIDENT, ENVIRONMENTAL 
   PROTECTION AND RESTORATION, THE CHESAPEAKE BAY FOUNDATION

    Ms. Coble. Chairman Barrasso, Ranking Member Carper, and 
distinguished members of the Environment and Public Works 
Committee, I am Kim Coble, Vice President of Environmental 
Protection and Restoration for the Chesapeake Bay Foundation. 
On behalf of our board, staff, and members, thank you for 
inviting me to participate in today's hearing to discuss the 
HELP for Wildlife bill. And thank you to the bill cosponsors on 
the Committee, Senator Barrasso, Senator Cardin, Senator 
Capito, Senator Boozman, for your leadership in introducing the 
bill.
    At CBF we have over 240,000 members and are proud to count 
sportsmen and anglers among them. In fact, our founders were 
sportsmen and anglers, and we have found them to be great 
conservationists.
    Today we are sitting in the middle of the Chesapeake Bay 
watershed, which feeds the great estuary in our nation. The 
Chesapeake watershed spans six States, 64,000 square miles, and 
encompasses over 3,600 species of plants and animals. We are 
surrounded by astonishing lands and waters that our 
extraordinary life depends on. These resources not only provide 
substantial ecological value, but they also provide tremendous 
economic value.
    Data from the outdoors industry underscore how important 
these lands and waters are to sportsmen, anglers, and other 
outdoor lovers in the region. According to the Outdoors 
Industry Association, annual consumer spending on outdoor 
recreation is $644 billion. In Maryland, West Virginia, and 
Delaware alone, the 2012 outdoor recreation economy generated a 
total of 206,000 direct jobs, $21.1 billion in consumer 
spending, and provided $5.9 billion in wages and salaries.
    Given both the ecological and economic value of the 
Chesapeake ecosystem, it is easy to understand why the six Bay 
States have been working together under a formal voluntary 
agreement since 1983 to restore the Chesapeake Bay watershed. 
At that time, our States realized isolated local restoration 
work was not yielding the results that are needed, and a 
Federal partnership was critical to achieving these results.
    Today, our States operate under the 2014 Chesapeake Bay 
Agreement. The first three goals of this agreement are to 
protect, restore, and enhance fisheries and vital habitats, and 
achieve the water quality necessary to support these living 
resources. These three goals are at the heart of the programs 
put forward on the HELP for Wildlife Act.
    The Chesapeake Bay Foundation strongly supports the 
conservation programs included in this bill. They are important 
to the sportsmen and anglers in our region, and to restoring 
the Chesapeake Bay through the 2014 Bay Agreement. They work 
together to support both local interests and the larger 
restoration of the cross-State ecosystem.
    The Chesapeake Bay Program reauthorized by this bill exists 
to help Bay States achieve their goals in the Bay Agreement. It 
facilitates the Federal partnership that is critical for 
protecting and restoring the multi-State Chesapeake ecosystem. 
The Chesapeake Bay Program has allowed States to set science 
based goals that address the needs of the entire ecosystem, but 
are also tailored to local habitats and values. The majority of 
program funding is invested through matching grants in local 
projects that directly help protect and restore wildlife and 
fisheries in their habitats.
    This leads me to the National Fish and Wildlife Foundation, 
or NFWF. NFWF administers some of the grants that are 
established by the Chesapeake Bay Program through their 
Chesapeake Stewardship Fund. These matching grants incentivize 
local watershed protection and stewardship, but they must also 
help the States meet their science based Bay Agreement goals.
    Take wetlands, for example. States have set a goal to 
restore 85,000 acres of wetlands and enhance an additional 
150,000 acres of wetlands by 2025. This Stewardship Fund can be 
invested in local stewardship projects that help reach that 
goal. In this way they achieve a win-win for local stakeholders 
and ecosystems.
    Both NAWCA and the Neotropical Migratory Bird Conservation 
Act provide critical investment and support for local 
stakeholder projects and habitat restorations. As a midpoint 
for the Atlantic flyway, the Chesapeake is a critical area for 
migratory birds and provides great systems for ecotourism and 
birders.
    Moving to fish habitat, codifying the National Fish Habitat 
Partnership will support locally led Atlantic Fish Habitat 
Partnership, which CBF is proud to be a member of, and the 
Chesapeake Bay Gateways and Watertrails network and Grants 
Program supports local initiatives to connect outdoor lovers 
with natural resources by expanding the physical access to the 
Bay.
    Programs included in this bill are very important to 
sportsmen and anglers in our region, and to the success of the 
2014 Bay Agreement. They work together to support both local 
interest in restoration needs, and for this reason the 
Chesapeake Bay Foundation strongly supports the conservation 
programs included in the HELP for Wildlife Act. Thank you.
    [The prepared statement of Ms. Coble follows:]
    [GRAPHICS NOT AVAILABLE IN TIFF FORMAT]
    
    Senator Inhofe [presiding]. Thank you, Ms. Coble.
    Mr. Vucetich.

STATEMENT OF JOHN VUCETICH, PH.D., ASSOCIATE PROFESSOR, SCHOOL 
    OF FOREST RESOURCES AND ENVIRONMENTAL SCIENCE, MICHIGAN 
                    TECHNOLOGICAL UNIVERSITY

    Mr. Vucetich. Committee, thank you for this opportunity to 
testify. I appreciate it greatly. I am a professor of wildlife 
management from Michigan Technological University and have been 
studying wolf ecology and management for the past 20 years.
    My professional understanding of the HELP for Wildlife Act 
is that it is a Trojan horse and should be opposed or amended. 
It contains some important positive provisions, but its most 
important effect, I believe, would be to undermine the 
Endangered Species Act and to subvert wolf conservation.
    Wolves are understood by science to be valuable to our 
ecosystems. Most Americans also recognize that wildlife, 
including wolves, possess value in their own right, and should 
be treated fairly and with respect. Sociological evidence is 
clear that the public support for wolves and wolf conservation 
is strong. Public support for the Endangered Species Act is 
also high among both liberal and conservative constituents.
    Nevertheless, some citizens and special interests express 
concern that conserving wolves comes at too high a price. They 
raise disquiet about human safety, protecting livestock, and 
unfair competition with hunters for deer.
    I address each of those topics in detail in my written 
testimony, and here I can summarize the main findings.
    First, and with respect to human safety, wolves, very 
simply, are not a threat to human safety. This fact is robustly 
supported by scientists in academia and in government. False 
impressions to the contrary are fostered by those who fabricate 
stories, made up stories about wolves and the threats that they 
cause to humans.
    Second, and with respect to livestock, government 
statistics plainly indicate that wolves are not a threat to the 
livestock industry. Wolves can certainly be a concern and a 
problem for some individual livestock owners, and we have an 
important obligation to attend to those challenges. 
Fortunately, there are effective tools available to deal with 
those problems. They include non-lethal control and financial 
compensation. And when those programs need to be improved, they 
should be so improved.
    The economic impact on livestock is more than likely made 
up greatly by wolves' effect on over-abundant deer populations. 
Over-abundant deer in the Great Lakes region is detrimental to 
forestry, it is detrimental to crops, it is detrimental to 
private property and human safety. In each of the three States 
in the Great Lakes region, about a dozen people are killed 
every year when their automobiles strike deer, and injuries 
number in the many hundreds.
    Wolf delisting is also motivated by very few people with an 
intense interest to hunt wolves. Their voices have been greatly 
amplified by State agencies. Their expressed motivation is to 
promote deer hunting; however, the best scientific evidence 
indicates that hunter success is influenced by factors aside 
from wolves, and State agencies from the Great Lakes region 
report that deer hunting is quite successful both in terms of 
number of deer harvested and hunter satisfaction.
    So these concerns, human safety, livestock, and deer, they 
tend to be grossly exaggerated. And to the limited extent that 
the concerns are genuine, they are readily accommodated.
    The concerns about wolf hunting go further. First, plans 
for wolf hunting are at odds with sound science, especially in 
the State of Wisconsin, where hunting would be intense enough 
to impair the ecological value of wolves. This is one of the 
values that is explicitly expressed in the finding section of 
the ESA, a value to be protected.
    Another concern about hunting pertains to America's hunting 
heritage and the widely acknowledged decline in hunting 
participation. Because few Americans participate in hunting, 
the success, the future success of hunting in America depends 
on the attitudes of non-hunters. Most non-hunters support 
hunting when it is motivated by obtaining meat; and most 
Americans, most non-hunters, oppose hunting when it is 
motivated by hatred for the animal, when it is motivated by 
obtaining a trophy, especially by cruel methods such as traps 
and neck snares. These are the important motivations and 
methods of wolf hunting. Pressing for this kind of hunting will 
unquestionably harm America's hunting heritage in the whole.
    A few assert that wolves demonstrate shortcomings in the 
Endangered Species Act. However, with a 99 percent success 
rate, the Endangered Species Act has been extremely effective 
at preventing the extinction of listed species. Moreover, there 
is solid sociological evidence to indicate that most people do 
not believe the Endangered Species Act is overly protective. 
Finally, the Endangered Species Act allows for ample 
flexibility about how it is that agencies and their 
collaborators go about recovering species.
    What the ESA requires is better implementation, and 
implementation is impaired when Congress intervenes on 
decisions pertaining to individual species, it is impaired when 
Congress intervenes on judicial review of ESA decisions, and 
when Congress fails to provide adequate funding for the 
Endangered Species Act. Adequate implementation also depends on 
sound science playing its proper role, a condition that is not 
always realized.
    So this is a summary of the shortcomings as I see them for 
the HELP for Wildlife Act as they pertain, in particular, to 
the Endangered Species Act and wolf conservation.
    Thank you for the opportunity.
    [The prepared statement of Mr. Vucetich follows:]
    [GRAPHICS NOT AVAILABLE IN TIFF FORMAT]
    
    Senator Inhofe. Thank you, Mr. Vucetich.
    Our Chairman will be coming back, Senator Barrasso. He is 
voting right now, and as soon as he gets back I am going to run 
and vote, so I am going to kill some time while we are waiting.
    Let me ask you a couple questions. First of all, confession 
is good for the soul, Dale. I didn't chew out, because I never 
do that, but I admonished my staff because they didn't let me 
introduce you. I always thought you were from Oklahoma. Then 
she looked it up, and you are not; you are from Tennessee; is 
that right?
    Well, anyway, you have come. This Partnership Act has 
really been great, and during the last couple administrations 
we have been able to successfully--in fact, when you were 
Director, you came out to Oklahoma; you talked to the 
landowners out there in western Oklahoma on our farmlands, our 
ranch lands. Somehow there is this notion that the landowners 
and the sportsmen somehow don't care that much about the land, 
about preserving it, about the environmental benefits, and we 
find this to be completely wrong.
    In fact, when you were out there, and Dan Ashe, I think it 
was, found the same thing, and the Government had learned from 
them how to preserve and take care of the conservation concerns 
and all that. Has that been your experience?
    Mr. Hall. Yes, sir, it sure has. In my 40 years or so 
working in conservation, and at least 30 of those directly with 
people that own the land, we need to understand something that 
is very basic. In this country, 65 to 70 percent of all fish 
and wildlife habitat is in private ownership, and it is there 
because they care. It is there because they have been good land 
stewards and because they have wanted to have as much diversity 
and health on their lands as possible.
    And I have never found a farmer or a rancher or a forest 
owner, or anyone else, that didn't truly love the land, and I 
think it is really unfortunate that anyone would make 
disparaging remarks such as these landowners don't care. That 
is simply not the truth. They do care, and they are America's 
first and foremost stewards of the resource.
    Senator Inhofe. Well, you know, I have heard that 
statement, and that is very disturbing.
    Ms. Coble, do you generally agree with that, that the 
landowners and sportsmen are first in line in trying to 
preserve the conservation?
    Ms. Coble. Yes, very much so. Our experience in working 
with farmers across the watershed have been that they are very 
open and willing and able to make improvements on their land 
and take care of it. As I mentioned in my testimony, we look at 
these landowners as the first conservationists, and it is a 
very strong ethic that we find throughout the watershed.
    Senator Inhofe. And I would say also, in your particular 
job, you depend on landowners, on the private sector to provide 
a lot of the funding and a lot of the resources necessary to 
have that conservation.
    Ms. Coble. The funding for the Bay restoration comes from 
many sources, and private landowners are one of those, yes.
    Senator Inhofe. Sure.
    Do you agree with that, Mr. Crow? How are things in 
Arkansas?
    Mr. Crow. Yes, sir. In Arkansas, 90 percent of our land is 
privately owned. We feel a tremendous responsibility to those 
landowners to help them understand how they play a role in 
conservation and working with them.
    One particular example that we have right now is our quail 
restoration effort. We are reaching out to landowners all 
across the State to develop some focal areas to restore our 
quail habitat back to its former glory. So we are getting a lot 
of support for that, and I am really encouraged, as we visit 
with landowners, the level of interest that they have, whether 
hunters or not, in participating in conservation.
    Senator Inhofe. Oklahoma and Arkansas, we are about half-
hog in Oklahoma, and I have to tell you that while I am very 
familiar--three of my kids graduated from Arkansas, so we are 
very familiar with it--with the ducks and the geese 
particularly. However, we compete on almost an even basis in 
the north central part of Oklahoma. As you know, we have 
flyways there that are almost unmatched. But generally 
speaking, they are the ones that really do want to have all the 
pristine and protection of the economy.
    How about in Wyoming?
    Mr. Nesvik. Well, thank you, Senator. Wyoming is very 
similar to what some of the other witnesses have testified to 
here. About 50 percent of our State is private land. Simply 
put, we would not enjoy the abundance nor the diversity of 
wildlife species that we have in our State without private 
lands, and many times those private lands are some of the most 
productive lands and are oftentimes used by wildlife.
    And I guess, second, the second part of your question with 
regards to sportsmen, that is one of the values that we really 
value in Wyoming. Oftentimes, our best conservation efforts 
come as a consequence of sportsmen and landowners and others 
that love wildlife coming together to try to develop these 
projects, and nearly every single provision in this bill has 
some component of it that requires partnerships with private 
landowners and sportsmen.
    Senator Inhofe. And you know, of course, Senator Barrasso 
being the Chairman of this Committee, he has been very 
interested and the prime mover of this bill, which, by the way, 
we had some kind of a goof up because I was to be one of the 
original cosponsors, too. And he has now returned, so I am 
going to go vote.
    Senator Barrasso, welcome back.
    Senator Barrasso [presiding]. Well, thank you very much, 
Chairman Inhofe, for your continued incredible leadership of 
this Committee.
    As I mentioned to the others, there will be people coming 
in and out, but I would like to start, if I could, Brian, with 
you with questioning.
    Could you just talk about how important it is in terms of 
outdoor recreation for the State of Wyoming in terms of our 
economy, and then will this HELP for Wildlife Act improve these 
opportunities?
    Mr. Nesvik. Well, thank you, Mr. Chairman. The short answer 
to your question is absolutely. As you and many of the esteemed 
members of this panel here today are well aware, habitat is the 
lifeblood of wildlife and also wide open spaces which provide 
opportunities for a variety of different outdoor activities 
like fishing, camping, outdoor photography, hiking, horseback 
riding, boating, hunting, wildlife viewing.
    All of these activities--and there are many, many others--
are a major part of our State's economy; they work 
symbiotically with the economy and are very important with 
regards to the provisions dealing with shooting ranges.
    In our State, as I think you are well aware, Governor Matt 
Mead has made providing shooting opportunities for all of its 
citizens a high priority. He strongly believes that outdoor 
activities connect people with the outdoors, and that is 
important, and that is an important part of our values and our 
culture in our State. So the provisions in this bill that 
encourage partnership with Federal land management agencies is 
very much in alignment with our economy and also with our 
culture.
    With regard to the provisions on allowing States to make 
decisions on the use of lead tackle, that is another very 
important component of our State's recreation and economy. 
Fishing is a big part of what a lot of our folks spend their 
extra time doing, so having that ability is also important.
    Then, last, I think the regulatory certainty that comes 
with the provisions on the migratory bird baiting is another 
component that is helpful for both landowners, farmers, and 
also hunters, alike.
    Senator Barrasso. Thank you.
    Mr. Hall, the HELP for Wildlife Act extends the 
authorization of appropriations for the North American Wetlands 
Conservation Act for 5 years. Your written testimony talks 
about the projects you mentioned in Wyoming that have been 
funded by the Act. You mentioned the protection of ocean lake 
wetlands in Wyoming, a $75,000 grant. I think you stated it 
``provides important habitat to a variety of migratory birds, 
including several species of waterfowl, shorebirds, many other 
wetland-dependent species.''
    Could you provide more examples as to how the North 
American Wetland Conservation Act has been used to enhance 
wildlife habitat in other States?
    Mr. Hall. Thank you, Mr. Chairman. I welcome that question 
because many people believe, unfortunately, that the North 
American Wetlands Conservation Act is the North American 
Waterfowl Conservation Act. It is the North American Wetlands 
Conservation Act. And when we do a project, and we do it at 
Ducks Unlimited alone, we average about 500 projects a year of 
one form or another. And by the Fish and Wildlife Service's 
estimate, those projects, each one benefits up to 900 species.
    I want to say that again. Between 700 and 900 species are 
benefited by these wetlands projects because, first of all, all 
wildlife needs water. So, if nothing else, it is a watering 
place for many of these. But these wetlands create the whole 
ecosystem, the food chain all the way from the micro 
invertebrates up through the top predators.
    So throughout the nation these kinds of projects are 
benefiting all the people. They purify water; they help to hold 
back flood damage by storing water. Along the coastlines 
wetlands are known to--if a hurricane is traveling over 
emergent marsh, for every 2.7 miles that it travels over 
emergent marsh, the storm surge is reduced by 1 foot.
    There are many, many benefits that come from creating these 
wetlands projects.
    Senator Barrasso. Thank you.
    Mr. Nesvik, May 1st, 2017, U.S. Fish and Wildlife issued a 
final ruling, again delisting the gray wolf in Wyoming under 
the Endangered Species Act pursuant to a mandate by the U.S. 
Court of Appeals for the District of Columbia. This puts the 
management of the gray wolf where it should have been all 
along, under the control of Wyoming, not Washington.
    In the words of the U.S. Fish and Wildlife Service, ``The 
Court's decision recognizes the recovered status of gray wolves 
and affirms the Service's determination that the State's 
regulatory mechanisms are sufficient for conserving wolves 
under its authority.''
    Talk about what kind of actions you are going to take to 
protect the gray wolves in Wyoming under your authority and to 
maintain adequate numbers needed to maintain that healthy 
population.
    Mr. Nesvik. Certainly, Mr. Chairman. Excellent question. I 
will start by just saying very simply implementation of 
Wyoming's wolf management plan is the short answer to your 
question. Our Governor, our elected legislature, our Wyoming 
Game and Fish Commission, all of our elected leaders in the 
State and appointed leaders have pledged support and commitment 
to manage for healthy and viable populations of wolves in our 
State into the future.
    As I have stated in my testimony, during those brief 2 
years when we did have the opportunity to manage wolves, we did 
it with a tremendous track record; we did it informed by 
science in an adaptive manner and with the public involved, the 
public for whose wildlife we manage as participants. 
Specifically, our plan calls for management of wolves and the 
number of breeding pairs above the minimum requirements of the 
Fish and Wildlife Service; it requires an adaptive approach, 
meaning that as the science changes, conditions on the ground 
change, so does the management; it requires focused monitoring 
through the use of telemetry collars and classification 
flights. When Wyoming had this authority before, we collared 
over 70 wolves to make sure that we were very closely 
monitoring the status of the population.
    Our plan requires the monitoring of genetic interchange; it 
requires us to provide and facilitate a zone, a flex zone where 
wolves can move back and forth between subpopulations; it calls 
for tightly regulated hunting seasons; it requires, just like 
we do with every other species, to provide law enforcement and 
to ensure that these regulations related to wolf management are 
enforced; and it also requires citizen involvement.
    So I think with all of those things, proven track record, 
commitments by elected leaders, I think demonstrates clearly 
that we are ready again, for the third time, to take over wolf 
management and do an excellent job at it.
    Senator Barrasso. Thank you.
    Senator Boozman.
    Senator Boozman. Thank you, Mr. Chairman.
    Director Crow, under the Migratory Bird Treaty Act, there 
are substantial fines for those who bait and hunt migratory 
birds over presently undefined baited areas. The problem is 
that farming practices carried out to produce a marketable crop 
in Arkansas, and recommended by the applicable State agency 
under the Department of Agriculture, are often in conflict with 
the baiting prohibition.
    As head of the Arkansas State wildlife agency, can you 
provide this Committee with your observations on the confusion 
that has resulted from the contradiction? Do you believe 
section 3 of the HELP for Wildlife Act would resolve this 
situation? Also, it is not only the farmers, but it is the 
hunters that certainly don't want to put their reputation on 
the line, their freedom. So, again, could you comment on that?
    Mr. Crow. Yes, sir, Senator Boozman. We actually had a 
situation in 2012, we had a drought that resulted in an early 
harvest of a lot of our rice crops, and then an early summer 
rain that produced kind of an unintended ratoon rice crop. Our 
local cooperative extension service advised our producers to 
either roll or plow those crops and to return those nutrients 
to the soil, which would clearly fall within the parameters of 
normal agricultural practice. However, the interpretation from 
the Fish and Wildlife Service maintained that those fields 
would be baited and that hunters would not be allowed to hunt 
waterfowl over them.
    This created a lot of confusion, and it caused a lot of 
difficulties for our producers and our farmers. I do believe 
that section 3 will be very helpful in terms of consistency and 
clarification for our hunters and for our producers and 
landowners. I think the biggest component of that is the local 
input; it is the consideration, what is the normal agricultural 
practice being pushed out at that State level, and I think that 
would be very helpful not only for our producers, but for our 
hunters.
    Senator Boozman. In your testimony, one of the things that 
you highlighted was the importance of enhanced State level 
coordination between USDA and the cooperative extension service 
and State agencies. Why do you feel that enhanced State level 
coordination is so important when defining normal agricultural 
practices?
    Mr. Crow. I believe that it is critically important because 
it is not a one size fits all type of determination. I mean, 
what is normal practice in McCurtain County, Oklahoma may not 
be the same as in Lee County, Arkansas, or Bossier Parish, 
Louisiana. There is a divergence of practices that are 
conducted at the local level.
    Hunting and fishing is a regulated activity, and there are 
a lot of regulations, and I think it is incumbent upon 
conservation organizations to make sure that those that have 
regulatory responsibilities to make sure that those regulations 
are not confusing, they are not difficult for our hunters to 
understand, or for our producers or for landowners.
    These are potential barriers for participation in hunting 
activities, and I think at a time in our nation when we 
struggle to encourage people to participate in conservation 
through hunting, that ambiguous and difficult regulations can 
be a barrier to that. So I think it is extremely important.
    Senator Boozman. Let's talk a little bit about NAWCA. 
Currently, Arkansas has 17 completed or underway projects. Our 
State has been able to use $11.7 million in NAWCA funding, 
along with another $41.7 million in partner contributions, to 
conserve a total of 77,089 acres of wildlife habitat. Would 
Arkansas be able to conserve that much wildlife without the 
NAWCA program?
    Mr. Crow. No, sir. There would be no way that we could 
maintain that level of work absent the assistance that comes to 
us through the NAWCA program. The beauty of this program is it 
is private landowner friendly, it is non-regulatory, and it is 
an incentive based program.
    I think it is interesting to note, and worthy to note, that 
the contribution, the in kind contributions almost triple, 
through whether it be our agency or organizations like Ducks 
Unlimited that contribute to these programs is absolutely 
essential for what we are doing in wetland conservation to have 
this program.
    Senator Boozman. So really great public-private 
partnerships.
    Mr. Crow. Absolutely.
    Senator Boozman. Very good.
    Thank you, Mr. Chairman.
    Senator Barrasso. Thank you.
    Senator Inhofe.
    Senator Inhofe. Thank you. I know I asked quite a few 
questions while we were waiting for our Chairman to get back 
from voting, but I have a couple more.
    By the way, in your absence, I told Mr. Crow about our 
competition between Arkansas and Oklahoma in our hunting and 
fishing wildlife, and what I was starting to say when Senator 
Barrasso came back in, after I was praising him for what he has 
done with this bill, I just said they also have another Senator 
there, and he is really big into fish and wildlife. In fact, 
the criticism that we get from his staff is that he goes off to 
commitments around the State, he keeps his fly rod in his 
trunk, and if he gets over a stream, he will stop there and 
fish for 2 or 3 hours and completely miss his meeting. So he is 
another one who is interested in this.
    I had just a couple questions.
    Mr. Vucetich, you had made a couple comments. One was that 
fewer Americans are hunting now. I don't know where you get 
that. Was Oklahoma included in that study?
    Mr. Vucetich. No, this is understood to occur throughout 
the nation, and in particular in the Midwest, where my comments 
were mostly focused on. But I don't believe there is much 
dispute about the notion that participation in hunting is 
generally on the decline.
    Senator Inhofe. Come to Oklahoma; you may find that is not 
the case.
    You did make a statement, talking about the wolf, that they 
are not treated fairly and with respect. I was writing down 
what you said.
    I would like to kind of get another view on that, if you 
would have one, Mr. Nesvik.
    Mr. Nesvik. Thank you, Senator. I guess I would 
respectfully disagree with that statement. I don't believe that 
that is the case. Certainly, in my State and in my workings 
with other States in the West, I don't believe that that is the 
case. I think that the management plans and the attitudes and 
the participation by sportsmen in the past have reflected this 
is just another opportunity for another species.
    We are very fortunate to have a diversity and abundance of 
species in our State. It is another species of wildlife that 
people have an opportunity to participate in their management, 
whether that be through active management or through being able 
to have wildlife viewing opportunities. So I don't agree with 
that statement.
    Senator Inhofe. All right, well, those are the only two 
questions I had.
    Senator Barrasso. Thank you, Senator Inhofe.
    Senator Carper.
    Senator Carper. Again, we appreciate your presence, your 
testimony, and your willingness to respond to our questions. 
There are a number of other committees that are meeting right 
now, and I think there are probably hearings that maybe 
normally would be in the afternoon have been moved to the 
morning. So don't view the presence or the absence of members 
here as not caring a great deal about these issues.
    I think, Mr. Crow, I heard during the introduction or your 
comments, I think the Marine Corps was mentioned. Is that true?
    Mr. Crow. Yes, sir, that is correct.
    Senator Carper. And your name was linked to the term Marine 
Corps. What is the connection, sergeant major?
    Mr. Crow. I am sorry?
    Senator Carper. What is the connection with you and the 
Marine Corps?
    Mr. Crow. I retired from the Marine Corps in 2007.
    Senator Carper. And I just want to thank you.
    Mr. Crow. Yes, sir.
    Senator Carper. And say semper fi.
    Mr. Crow. Thank you, as well.
    Senator Carper. OK, Navy salutes Marine Corps. Different 
uniforms, same team.
    Let me just start with John Vucetich. Does anyone ever 
mispronounce your name?
    Mr. Vucetich. I am pretty easy about how it is pronounced, 
so, no.
    Senator Carper. I expect a lot of people call you John.
    Mr. Vucetich. Yes.
    Senator Carper. We have heard today that some stakeholders 
and wildlife managers are frustrated with the lengthy process 
associated with recovering and delisting the gray wolf. In your 
view, is the process too long? And do you think that a longer 
road to recovery within the bounds of the Endangered Species 
Act might be appropriate?
    Mr. Vucetich. When we think about how long it has taken to 
come this far with wolves, over the last 15 years they have 
been kind of center stage, especially for the Fish and Wildlife 
Service, I think it is important to keep in mind two issues. 
One is that wolves are symbols of nature for many Americans; 
they are symbols of all of the things that many of us love 
about nature, and they are symbols for all the things that many 
of us hate about nature. So what that means is that when we 
have conversations about wolves, we are having conversations 
about our relationship with nature on the whole.
    Sometimes that is infused with a distracting amount of 
emotion. Nevertheless, they are a proxy for our attitudes 
overall. That, I think, demands that we be cautious and take 
the time necessary to go through this, because our 
understanding of our relationship with nature is not something 
that we will just settle on some day and be done discussing; it 
is an ongoing sort of thing.
    To be a little bit more specific, many of the issues 
pertaining to wolves in the Endangered Species Act has to do 
with the legal aspect of the definition of significant portion 
of range. Without going into the legal details of it, what it 
amounts to is that we, as an American people, still don't know 
what it means to be an endangered species.
    How much does a species have to be impaired by us humans 
for us to say that is no longer good enough? That is what is at 
the heart of the issue about wolves with the Endangered Species 
Act. It is an extremely basic question that affects our 
understanding of the Endangered Species Act overall. It is a 
very difficult question.
    Fish and Wildlife Service has had a very hard time trying 
to answer it, in part because it is a hard question. What I 
think they need from Congress is encouragement and leadership 
on answering it. And when delisting riders, like the one we are 
speaking about today, are accompanied with a bill that doesn't 
help the Fish and Wildlife Service focus on solving the 
problem, it kind of gets them off the hook.
    Senator Carper. Good. Thank you.
    A question for Kim Coble. We applaud your efforts and those 
of others who have worked with you to facilitate and support 
the restoration of the Chesapeake Bay to good health, but would 
we be able to restore, protect, preserve the Bay if the 
Chesapeake Bay program did not exist? Specifically, would the 
Bayside States of Maryland and Virginia be able to entice more 
distant States like Delaware, like Pennsylvania, like West 
Virginia and New York to reduce the flow of pollutants from 
their States and otherwise help them to protect the Chesapeake 
from upstream threats?
    Ms. Coble. Thank you, Senator Carper. No. The Federal 
partnership is critical to the Bay restoration effort, and that 
has been borne out over decades of work. When you have six 
States, you have DC, you have many different governments, 
different funding programs, different perspective, different 
politics. To have an umbrella of the Federal partnership allows 
for better coordination, it allows for better dialogue, it 
allows for better science, and it allows for a better outcome 
for the whole effort.
    Senator Carper. All right. I think you may have begun to 
answer this question, but how does this program, the Chesapeake 
Bay program, overcome the difficulties that downstream States 
have in working with their upstream counterparts?
    Ms. Coble. It is an interesting question about the 
relationship of downstream versus upstream, because we are all 
part of the watershed. So New York is the furthest State 
upstream than Pennsylvania. Each State has a role to play in 
the Bay clean up in that all their rivers and streams that feed 
it are part of it. So when Pennsylvania invests dollars and 
effort to improve their own water quality, they are also 
improving the health of the Bay.
    Now, Maryland and Virginia, being the downstream States, 
obviously want to ensure that Pennsylvania does everything it 
can, and this is again where the Federal partnership becomes 
key. Virginia and Maryland can work much more closely in 
assuring Pennsylvania has resources it needs, has the political 
will it needs to get the job done because the Federal partners 
are at the table as well.
    Senator Carper. OK, thanks so much.
    Senator Barrasso. Senator Gillibrand.
    Senator Gillibrand. Thank you, Mr. Chairman. I appreciate 
that the Committee is holding this hearing to scrutinize the 
HELP for Wildlife Act. While this bill includes several 
important beneficial conservation provisions that I support, I 
am concerned about other parts of the bill that would have some 
very negative impacts on the Endangered Species Act and the 
regulation of toxic chemicals. I am concerned that the TSCA 
provision in section 9 of this bill is a solution in search of 
a problem that would tie the hands of the EPA from ever 
regulating the components of sports fishing equipment.
    This provision is unnecessary and does nothing to change 
the status quo for recreational fishermen. The EPA is not 
currently seeking to regulate sports fishing equipment under 
TSCA at the Federal level. However, it would be shortsighted 
for us to prevent future TSCA regulation permanently should the 
science warrant a change in the future.
    I am also concerned that this bill would legislate a 
delisting of gray wolves from the Endangered Species Act and 
prevent judicial review. Listing decisions should be based on 
science, and not politics.
    On that topic, I would like to ask the witnesses a few 
questions.
    Mr. Nesvik, you have raised concerns about livestock 
populations that have been impacted, wolf depredation. On 
average, how many cattle and sheep are killed by wolves each 
year in Wyoming?
    Mr. Nesvik. Thank you, Senator. The number of cattle and 
sheep that are killed annually that is attributed to wolf 
depredation fluctuates widely. Last year was a record year, and 
I can get back to you with specific numbers, but I can tell you 
it was in the hundreds, over 200 cattle that were attributed to 
wolf depredations.
    Senator Gillibrand. And how does that number compare to 
other predators like coyotes, mountain lions, and bears?
    Mr. Nesvik. So in Wyoming we also investigate and 
compensate landowners who have damages that are a consequence 
of grizzly bears, mountain lions, and black bears. And in 
total, of all of the different species that cause damage across 
our State, not only to cattle or sheep, but also to standing 
crops or to agricultural operations, wolves account for about 
37 percent of that total amount of damage to livestock 
producers and also farmers.
    Senator Gillibrand. Dr. Vucetich, is wolf delisting 
necessary to protect livestock from wolf attacks, and are there 
effective methods for protecting livestock that can be used by 
farmers, ranchers, and government agencies today?
    Mr. Vucetich. Yes, there are effective methods for 
protecting livestock. They include non-lethal control, there 
would be some instances where lethal control is appropriate, 
and also for financial compensation for these losses are 
appropriate.
    Senator Gillibrand. For Ms. Coble, as you know, New York 
State is part of the Chesapeake Bay watershed, and New York 
State receives approximately $2.7 million through the 
Chesapeake Bay Watershed Program for conservation projects. 
What types of projects are funded in New York to conserve the 
Chesapeake Bay, and is there more that can be done to help New 
York meet its conservation goals for the Chesapeake Bay?
    Ms. Coble. Thank you, Senator. Generally speaking, New York 
is one of the six States that feed into the Chesapeake Bay 
watershed and therefore have goals to reduce the pollution 
coming down the Susquehanna from New York. The resources for 
New York, I can get you the specifics from it, but there are 
pollution reducing programs specifically for agricultural 
purposes, agricultural farms, as well as for stormwater runoff. 
So I don't have the dollar figures right handy.
    Senator Gillibrand. Will you submit that for the record?
    Ms. Coble. Yes, ma'am.
    Senator Gillibrand. Thank you all for being here today, and 
thank you for testifying.
    Thank you, Mr. Chairman.
    Senator Barrasso. Thank you so very much, Senator 
Gillibrand.
    Senator Booker.
    Senator Booker. Thank you, Mr. Chairman.
    Some of my comments want to pick up where Senator 
Gillibrand was, but as we consider this bill, what is 
astonishing to me is that we just have to acknowledge that we 
are in the midst of a global extinction crisis on the planet 
Earth of stunning proportion. It is estimated that we have now 
lost more than half of all wildlife on the planet Earth in the 
last five decades, and the fact that we are not talking about 
this in the context of the severity of this mass extinction 
that we are under right now is chilling to me. This should be 
an issue for Congress, and it should be an issue for public.
    One in six species on the planet Earth are threatened with 
extinction in this century alone, and that is why the 
Endangered Species act, which has saved 99 percent of the 
wildlife under its protection from extinction, is such an 
incredibly important law, and it is why the ESA decisions must 
be based on science, without interference from Congress.
    So, Mr. Vucetich, I just want to focus some questions on 
you, if I may, in follow up to Senator Gillibrand.
    So section 7 of the bill that we are discussing would 
delist gray wolves in the western Lakes for endangered species, 
and you know, obviously, in 2014 the District Court here in 
Washington struck down the exact same efforts to delist the 
wolves. As you know, wolves in the United States currently 
inhabit only 15 percent of their historic range. So we have 
savagely--by 85 percent--cut their range.
    You specifically have written a lot of the scholarly 
literature on the Endangered Species Act, so, based on your 
expertise, can you just explain whether the western Great Lakes 
wolves have met the ESA's requirements for delisting?
    Mr. Vucetich. No, they haven't, and the main reason is 
because, as you mentioned, wolves in the lower 48 have only 
been recovered to 15 percent of their former range, and the 
Endangered Species Act uses language that is shrouded in this 
phase ``significant portion of range.''
    What the courts have indicated in about a dozen court cases 
over about a 10-year period is that that phrase means that the 
Endangered Species Act says that recovery requires the species 
be relatively widely distributed throughout its former range.
    There are some difficulties and challenges in understanding 
exactly what ``widely distributed'' means, but there doesn't 
seem to be much dispute that 15 percent doesn't qualify. That 
is what the great concern is with these court cases. That is 
why every time the Fish and Wildlife Service proposes to delist 
under our meager conditions for wolves, the courts have struck 
them down, because it violates that particular principle of the 
Endangered Species Act.
    Senator Booker. Thank you very much. And we do know the 
data about the damage to livestock. This is not an issue at 
question. Right now, less than one-half of 1 percent of 
livestock losses are attributable to wolves. Less than one-half 
of 1 percent. Concerns, nevertheless, have been raised about 
their negative economic impacts.
    Is there a way to think about the economic impacts of 
wolves that considers the broader ecological benefits that 
wolves provide and the sort of cost-benefit analysis?
    Mr. Vucetich. Yes, yes, absolutely. As you mentioned, there 
is a great deal of focus on the negative impact of wolves 
economically, and it is mostly focused on livestock. To cite 
two particular examples, in Wisconsin and Minnesota, they spend 
in the neighborhood of $150,000 or $200,000 a year compensating 
for that. Those losses absolutely need to be weighed against 
the benefit of wolves. And I am talking about relatively hard 
core economic benefits.
    One of the great troubles in the Great Lakes are over-
abundant deer populations. Over-abundant deer are damaging to 
forestry. In particular, when there are too many deer, hemlock 
can't grow, white pine can't grow, several other species. If 
wolves are allowed to do what they do, they would better over-
abundant deer populations and it would give a very different 
impression of the economic cost.
    There is also a human life issue, too, because, again, 
about a dozen people are killed a year in each of these States 
when their cars hit deer. So there is a sense of maybe putting 
human life in front of livestock, if you would expand it that 
way.
    Senator Booker. Absolutely. So just in a sheer balance 
sheet analysis to taxpayers around the United States of 
America, the ESA makes economic sense.
    But let's continue for a second. If the bill written 
becomes law, Great Lakes wolves would lose all of their Federal 
protections, and management of wolves would be turned over to 
the States. Between 2012 and 2014 Great Lakes wolves enjoyed 
those protections. But during the time State wildlife managers 
permitted some incredibly cruel methods to kill hundreds of 
wolves, and these include savage cable neck snares; steel jawed 
leg hold traps, which affect other wildlife, even our pets, 
these savage things that I have worked in a bipartisan way to 
try to ban from our national wildlife refuges; pack trailing of 
hounds.
    So, in your opinion, do you think these methods are 
considered as ``fair chase'' wolf hunting methods?
    Mr. Vucetich. No, they are not fair. One of the things that 
I think is important about wildlife management, about hunting 
programs in particular, is that we don't just simply hunt 
things; we hunt things for a reason, and the reason has to be a 
good reason, and then the methods have to be appropriate along 
with that. And there is pretty good reason to think that a lot 
of wolf hunting is motivated by hatred for wolves, and never in 
our American hunting heritage have we ever hunted something 
because we hated it. This is the first time in our history that 
we have decided to do that.
    The other thing, just one more example, again, the example 
in Michigan, the plan for hunting wolves was all focused on 
reducing livestock depredations. It is important to reduce 
livestock depredations, but hunting is an absolutely silly way 
to do it; it doesn't make any sense with the science. So, once 
again we are hunting and killing wolves for reasons that 
doesn't make sense, and in that sense it is not fair or 
respectful to wolves.
    Senator Booker. I am just going to push one final question. 
Arguments in favor of wolf conservation tend to focus 
exclusively on the benefits that wolves provide to humans, and 
whether those benefits outweigh any negative impacts on us. 
This strikes me as sort of a limited view. So much of this 
analysis is done on a limited view, including that economic 
analysis we mentioned before.
    So my final question is, is there a broader perspective 
that we should be considering when discussing wolf conservation 
and management that takes into account how residents of the 
Great Lakes States and other public folks perceive wolves?
    Mr. Vucetich. Absolutely. There is good sociological 
evidence that indicates something like 80 to 90 percent of 
Americans say that wildlife have value beyond their economic 
value and beyond any value to humans. In other words, 80 to 90 
percent of Americans believe that wildlife, including wolves, 
have value for its own sake. This is across demographic 
categories; men, women, wealthy people, middle class people, 
liberals, conservatives. It is a very, very widespread belief.
    When you believe that something has value in its own right, 
that is the trigger for saying that it needs to be treated 
fairly and with respect, and I cited just a moment ago some 
important examples how wolves are not treated that way.
    Senator Booker. Sir, thank you very much for your 
testimony, even though you have an over-abundance of hair.
    Mr. Chairman, can I, for the record----
    Senator Barrasso. Be added as a cosponsor, did you say?
    [Laughter.]
    Senator Booker. Cosponsor of the requirement that all 
witnesses shave their heads, I would be very happy for that. 
This guy makes me feel really insecure.
    Mr. Vucetich. We can find a compromise, maybe.
    Senator Booker. OK. We can meet midway.
    But there is a book that I did with my Booker Book Club, 
sir, which I think you might be a member of, I am not sure. We 
did a book called The Sixth Extinction by Elizabeth Kolbert. It 
is a devastating book that talks about the mass extinction 
going on in the United States of America. May I enter that book 
into the record?
    Senator Barrasso. Without objection.
    Senator Booker. Thank you very much.
    Senator Barrasso. Thank you.
    [The referenced information is available in Committee 
files.]
    Senator Barrasso. Mr. Nesvik, you know what is interesting? 
In your written testimony you discuss the North American 
Wetlands Conservation Act, the reauthorization that is in this 
HELP for Wildlife Act, and you make a point that about one-
third of all endangered species are wetlands related species. 
So is it safe to say that reauthorization of this program in 
this bill is actually going to help protect many endangered 
species? And can you maybe elaborate on that a little bit on 
that?
    Mr. Nesvik. Absolutely, Mr. Chairman. I think that one of 
the important tenets of wildlife conservation is the fact that 
water is absolutely important to all living things on the 
planet. I think that is understood by most. But healthy 
wetlands are an indicator of overall ecosystem health, and Mr. 
Hall did an excellent job of talking about some of the details 
that really give rise to that analysis and that conclusion.
    There are, as I stated in my testimony and as you just 
reiterated, a wide, wide range of endangered species that are 
what we call wetland obligates, species like the Kendall Warm 
Springs dace. That is a species that is only found in one 
particular spot in the Upper Green River Basin of Wyoming, and 
that is where we conducted a $1 million NAWCA project, 
specifically in that particular area.
    The Wyoming toad is another wetland obligate endangered 
species that relies heavily on wetlands, to name a couple 
Wyoming species.
    Other species include the whooping crane, the southwestern 
willow flycatcher, piping plover, least tern, Yuma clapper rail 
in the southwest, the desert pupfish. I bet you have never 
heard of that one, Mr. Chairman. And a variety of plants as 
well, just to name a very few.
    Senator Barrasso. Great. Thank you very much.
    Senator Cardin.
    Senator Cardin. Mr. Chairman, first of all, thank you for 
keeping the hearing open, as I was tardy getting back from the 
floor. I appreciate that. I very much appreciate your 
leadership on this bill, as I said as I was introducing Kim 
Coble.
    This bill is important for many reasons, and I appreciate 
each of the witnesses' testimony as to various parts of it. I 
am obviously very much interested in the impact that this 
legislation has on the Chesapeake Bay, and I say that because 
we have heard from the OMB director that it is important to 
have authorized programs, Mr. Chairman. I agree with that. We 
are the authorizing Committee. It is important for us to speak.
    And we have been funding the Chesapeake Bay effort with 
that authorization for many, many years, and under the 
Chairman's leadership we now have the opportunity to have an 
authorized program, which gives it a much stronger standing. It 
has had strong standing in Congress; it has been supported in 
Congress. But having authorization puts it in a much stronger 
position.
    We have also had challenges, and this is not alone, in 
regards to attacks on continuation of the funding of the 
program. And this puts us in a much stronger position when you 
have an authorization.
    What was particularly important--and Kim, you have 
commented about this--the Chesapeake Bay program is a modest 
program as far as Federal funds, $73 million. It is a 
relatively small amount of the total resources that goes into 
cleaning up the Chesapeake Bay. The largest amount of 
resources, by the way, come from local governments, State 
governments, more so than the Federal Government, just so we 
understand that the taxpayer support is more local than it is 
Federal. And we take pride in that.
    But the Federal partnerships are very important, and the 
Chesapeake Bay program provides the glue, as Kim testified, to 
make sure that we are living up to everyone's obligations. It 
really keeps all the stakeholders focused that there is an 
overseer that makes sure that we do what we say we are going to 
do, and that provides the operations and the grants to make 
sure that that in fact takes place.
    There are many parts to the Chesapeake Bay program. Several 
are included in this legislation. We have already talked about 
the National Fish and Wildlife Foundation; we have talked about 
the National Fish Habitat partnership, the National American 
Wetlands Conservation Act, the Chesapeake Bay Gateways and 
Watertrails Network and Grant programs, all those feed in to 
the support of the Chesapeake Bay. And I could mention the 
Revolving Fund for wastewater and clean water, which very much 
fits into it. I could mention the farm bill with the Regional 
Conservation Partnership Program.
    So there are a lot of pieces that fit into the Chesapeake 
Bay, and I say that because it is the largest estuary in our 
hemisphere; it has been declared by Presidents as a national 
treasure. Kim mentioned the number of species that are included 
in the Bay, the economic impact of the Bay, the quality of 
life, the iconic nature, that so many people live in the 
watershed. Why? Because they love the Chesapeake Bay, and it 
grows every year, presenting additional challenges.
    So today's hearing on many parts of the Chesapeake Bay 
program is really a very, very important ingredient on the 
continued efforts that have been made now for close to 40 
years, going back to Harry Hughes as Governor of Maryland when 
I was in the State legislature.
    So, Kim, I just want to give you one last chance to sort of 
comment as to the importance of the Chesapeake Bay program 
itself, that $73 million that is currently being appropriated 
and which here is authorized at $90 million, how important that 
is to the overall effort.
    Ms. Coble. Thank you, Senator Cardin, and also, thank you 
for your leadership for decades on the Bay. I am not sure we 
would be where we are today without you, so thank you.
    Senator Cardin. I just would point out Senator Mathias 
started the efforts, the great Republican Senator from 
Maryland; Senator Sarbanes continued that effort, and I have 
his seat. Of course, my colleague, Senator Mikulski, has been a 
great champion; and on the other side of the aisle John 
Sarbanes has been one of our great leaders. But I thank you for 
those comments.
    Ms. Coble. Probably the best point I can make regarding 
this is to actually talk about the health of the Bay, and what 
we have seen is that it is recovering. I never really thought 
that, really, in my career I would see the improvement in water 
quality, the improvement in habitat, and the improvement in the 
industries that are supported by it that we have seen over the 
last couple of years. Underwater grasses are rebounding; the 
famous blue crab is coming back; oysters are doing better; 
striped bass are coming back.
    Every other year we do a State of the Bay Report where we 
give numeric indicators. We gave the highest rating to the 
health of the Bay this last year that we have ever give, at 34, 
and it is very exciting to see that this Chesapeake Bay 
program, the Bay Agreement that is governing the clean up and 
the restoration of our land, is working.
    It is a true sign of success, and it is a model, I think, 
for across the country. It will not work without Federal 
leadership. It will not work without the Chesapeake Bay program 
and the other programs in this bill. And as you said, Senator 
Cardin, it is a modest amount, but it is a critical amount. 
That oversight and umbrella is the glue that holds the whole 
thing together. So it is with great support for those programs 
in this bill that we are here to testify in support of it.
    Senator Cardin. Mr. Chairman, let me say in conclusion I 
also want to mention support for the neotropical bird, which 
includes, as I am sure the Chairman knows, the Baltimore 
Oriole, which is a neotropical bird. And we love the Baltimore 
Orioles, and they won last night, Mr. Carper, 12 to 1. Just 
want you to know.
    [Laughter.]
    Senator Barrasso. Let the record reflect. We would also 
like to introduce for the record, ask unanimous consent for a 
number of different submissions of articles, letters, and 
testimonies in support of the legislation. Without objection.
    Thank you.
    [The referenced information appears earlier in the printed 
hearing.]
    Senator Barrasso. Senator Carper.
    Senator Carper. As Senator Cardin prepares to leave, let me 
just point out I am just grateful that his moment for victory 
on behalf of his Orioles did not occur at the expense of my 
Detroit Tigers. To be continued.
    Ms. Coble, one thing about your testimony that strikes me 
is that the far broader purpose of the Chesapeake Bay program 
to address issues that are also highly relevant in this bill 
before us, restoration, preservation of critical habitats, 
notably, wetlands and other fishery and wildlife habitat.
    I just want to take maybe a minute, if you will, to 
elaborate on this broader mission of the program beyond water 
quality and talk about the partnerships that broader mission 
entails among Federal agencies, among States, nonprofits and 
business. Who is involved in all these issues in all these 
efforts?
    Ms. Coble. Thank you, Senator Carper.
    Senator Carper. Briefly, if you would.
    Ms. Coble. We have often said what happens on the land has 
more impact than what is happening in the water, because the 
Chesapeake Bay watershed landmass is so enormous, 64,000 square 
miles. The habitat that is within that watershed is integral. 
All my colleagues at the table here have talked about the 
importance and interplay between the animals, the species that 
live in it and the quality of that; the need for that habitat; 
the bird flyway on the Delmarva peninsula is critical; the 
wetlands serving it. So all of those habitats are important for 
our wildlife, important for anglers and sportsmen, and 
important for water quality.
    Senator Carper. All right, thanks.
    I was privileged to be Governor of our State from 1993 to 
2001, and it was at a time when I think you said there was a 
score, if you will, for the restoration of the Bay gave a 34, 
said it is the best it has been for quite a while. From 1993 to 
2001 the prospect was not so encouraging.
    One of the things that we found out, what we are doing in 
Delaware, we raise a lot of chickens in my State, your State 
too, but in Sussex County, Delaware, we raise more chickens 
than any county in America, and they create a lot of chicken 
manure.
    What we were doing is stacking up the chicken manure, 
cleaning our houses and stacking it up in farm fields, and 
waiting until somewhere down the line to be able to use it as a 
fertilizer for the nitrogen and phosphorous content. And the 
rains would come, wash the nutrients into ditches and creeks 
and streams, and eventually rivers and eventually into the 
Chesapeake Bay.
    I remember gathering a lot of farmers in my State together 
in southern Delaware and some folks from environmental 
communities, from the Department of Natural Resources, 
Environmental Control, including the fellow sitting right 
behind me, Christophe Tulou; he used to be our secretary. We 
talked about the Golden Rule, and I said to the farmers, how 
would you feel, how would we feel if folks over in Maryland 
were somehow polluting whether it is the air or the water that 
comes over and diminishes our ability to make a living? How 
would we feel about that? And we all agreed that would not be a 
good thing.
    And we tried to figure out how to actually be guided by the 
Golden Rule, we know about love thy neighbor. We came up with 
this Nutrient Management Commission. It was farmer led, and the 
final result was every farm where they had poultry litter and 
they spread the nutrients on farm fields, they had to have a 
nutrient plan and how to do that. They had to be essentially 
trained to do that and certified to do that.
    And we have had that in place now for almost 20 years, and 
it has worked. It has worked. Again, it involved the efforts of 
environmentalists and our regulatory agency in the State, but 
it was really the farmers, who are and can be some of our best 
environmentalists, who were right there at the vanguard. And I 
am very, very proud of what we have accomplished, and at the 
end of the day, to be a much better neighbor to Maryland, and 
we have been for a long, long time.
    We applaud all of you here today, whether you served in the 
Army, the Marines or not, we are grateful for your service and 
sharing your information with us, and I look forward to working 
with you going forward. Thank you so much.
    Senator Barrasso. Thank you so much, Senator Carper.
    Just before I bring this to a close, Brian, a quick 
question or two. My recollection is the introduction of wolves 
into Yellowstone, Bruce Babbitt, Bill Clinton was President. 
The number was like 30, and the idea was to get to 100 as a 
stable number, and we have been there for over 15 years.
    My recollection in this Committee, Dan Ashe, who was 
President Obama's head of Fish and Wildlife, said Wyoming has 
done everything that we have asked them to do; they are a 
stable population. And I have read somewhere that the number of 
wolves that have expanded beyond Yellowstone, where they were 
``supposed to stay,'' is now 1,700 in Montana, Idaho, Wyoming. 
You are seeing them in Oregon, California. Are those roughly 
the accurate numbers, so the wolves have kind of expanded 
significantly?
    Mr. Nesvik. Mr. Chairman, your numbers are approximate, and 
they are correct. Idaho hasn't actually done a population 
estimate in a couple years, but Montana and Wyoming have, and 
you are exactly right. The wolf population in the northern 
Rocky Mountains have done quite well and have expanded.
    Senator Barrasso. And then take a look at this map. We talk 
about the traditional area of habitat for the gray wolf, which 
is in gray. Wasn't it just about most of the United States at 
one point or another was the traditional habitat for the gray 
wolf, including all of New York and the northern half of New 
Jersey? Is this an accurate assessment of what had happened 
over the time?
    Mr. Nesvik. Yes, Mr. Chairman, that is my understanding of 
kind of the historical occupied habitat of wolves back in pre-
settlement.
    Senator Barrasso. So, John, in your written testimony, when 
you say that wolves inhabit about 15 percent of the historic 
range, I think this is truly the case, you can see from the 
chart of all of the places where they were, are you advocating 
that this return is something that could be feasible?
    Mr. Vucetich. No, I am not advocating for that, nor has 
anyone else who has worked on this issue of significant portion 
of range. I think what is disturbing to many folks who are 
focused on this issue is that 15 percent wouldn't seem, prima 
facie, to satisfy that notion of, and I am using words a little 
less technically, kind of widely distributed, or significant 
portion of range, as the law states. They are concerned that 
that number doesn't meet the mark.
    There is also pretty plain awareness that wolves can do 
well in other places. Not all of those places, but definitely 
other places. Places that folks have talked about are the 
Northeast, Pacific Northwest, the southern Rockies, which is 
kind of Colorado and northern New Mexico.
    And I don't know that here is the place to go into the very 
fine details about that, but just that there are those places 
that people have made the case that wolves could do well there.
    Senator Barrasso. And I think we have tried to reflect that 
with the green, which, at the bottom, if you could maybe hold 
this up a little bit, where we say potential habitat.
    Mr. Vucetich. Yes.
    Senator Barrasso. In green. And then currently occupied 
habitat in the red, and then the gray all of the location.
    So anything final?
    Any final comment, Brian, you would like to make on all of 
this?
    Mr. Nesvik. So, Mr. Chairman, I guess the one thing I would 
conclude with is that our experience in Wyoming has been that 
gray wolves is a species that does not coexist well with human 
activity. They require large expanses of undisturbed habitat in 
order to do well. We have that in Wyoming, and that is where we 
have focused our wolf management plan, is in those areas where 
it is both biologically and socially suitable habitat for 
wolves.
    In most of the rest of the State wolves find themselves in 
conflict very quickly when they expand to those other areas. 
The areas you highlight on that map are places where there are 
some larger open expanses, but wolves travel. We have seen 
wolves travel 25, 30 miles in a day, and wolves eat meat. That 
is a scientific fact. So it is very difficult to find those 
large expanses of range where wolves can exist where they don't 
conflict with livestock operations.
    But I do believe this, and I will conclude with this, Mr. 
Chairman, that we have demonstrated and have fully committed to 
do both things, mitigate livestock conflicts and also manage 
for a viable, healthy, and fully recovered wolf population in 
the State of Wyoming in the future.
    [The referenced information follows:]
    [GRAPHIC NOT AVAILABLE IN TIFF FORMAT]
    
    Senator Barrasso. Well, I want to thank all of you today. 
Members may submit follow up written questions which may happen 
for the record. The hearing record will be open for 2 weeks.
    I want to thank all the witnesses for your time and 
testimony today.
    The hearing is adjourned.
    [Whereupon, at 11:43 a.m. the Committee was adjourned.]
    [Additional material submitted for the record follows:]
    [GRAPHICS NOT AVAILABLE IN TIFF FORMAT]
    
                                 [all]
</pre><script data-cfasync="false" src="/cdn-cgi/scripts/5c5dd728/cloudflare-static/email-decode.min.js"></script></body></html>
